                                            SENSITIVE BUT UNCLASSIFIED


OFFICE OF INSPECTOR GENERAL
                                                      United States Department of State
                                                      and the Broadcasting Board of Governors
                                                      Office of Inspector General




                              OFFICE OF INSPECTIONS

                              Review of the Use of Social Media
                              by the Department of State


                              Report Number ISP-I-11-10, February 2011
Inspector
General
Office of




                                                                     IMPORTANT NOTICE
                              This report is intended solely for the official use of the Department of State or the Broadcasting Board
                              of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                              General. No secondary distribution may be made, in whole or in part, outside the Department of State
                              or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                              authorization by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                              criminal, civil, or administrative penalties.



                                            SENSITIVE BUT UNCLASSIFIED
  SENSITIVE BUT UNCLASSIFIED




 PURPOSE, SCOPE AND METHODOLOGY
        OF THE INSPECTION
This inspection was conducted in accordance with the Quality
Standards for Inspections, as issued by the President’s Council on
Integrity and Efficiency, and the Inspector’s Handbook, as issued
by the Office of Inspector General for the U.S. Department of State
(Department) and the Broadcasting Board of Governors (BBG).

Purpose
The Office of Inspections provides the Secretary of State, the
Chairman of the BBG, and Congress with systematic and indepen-
dent evaluations of the operations of the Department and the BBG.
Inspections cover three broad areas, consistent with Section 209 of the
Foreign Service Act of 1980:
 • Policy Implementation: whether policy goals and objectives
   are being effectively achieved; whether U.S. interests are being
   accurately and effectively represented; and whether all elements of
   an office or mission are being adequately coordinated.
 • Resource Management: whether resources are being used and
   managed with maximum efficiency, effectiveness, and economy
   and whether financial transactions and accounts are properly
   conducted, maintained, and reported.
 • Management Controls: whether the administration of activities
   and operations meets the requirements of applicable laws and
   regulations; whether internal management controls have been
   instituted to ensure quality of performance and reduce the likeli-
   hood of mismanagement; whether instance of fraud, waste, or
   abuse exist; and whether adequate steps for detection, correction,
   and prevention have been taken.

Methodology
In conducting this inspection, the inspectors: reviewed pertinent
records; as appropriate, circulated, reviewed, and compiled the
results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recom-
mendations with offices, individuals, and organizations by this
review.




  SENSITIVE BUT UNCLASSIFIED
                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
SENSITIVE BUT UNCLASSIFIED




SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



                                    TABLE OF CONTENTS

KEY JUDGMENTS�������������������������������������������������������������������������������������������������������������� 1
CONTEXT���������������������������������������������������������������������������������������������������������������������������� 3
INSPECTION FINDINGS���������������������������������������������������������������������������������������������������� 5
SOCIAL MEDIA SITE REVIEW FINDINGS �������������������������������������������������������������������� 7
OTHER ISSUES�������������������������������������������������������������������������������������������������������������������11
RECOMMENDATIONS���������������������������������������������������������������������������������������������������� 13
INFORMAL RECOMMENDATIONS�������������������������������������������������������������������������������15
ABBREVIATIONS�������������������������������������������������������������������������������������������������������������� 17




                OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011                iv


                       SENSITIVE BUT UNCLASSIFIED
           SENSITIVE BUT UNCLASSIFIED




v   OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011


           SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



KEY JUDGMENTS

•	 Embassies are actively involved in social media, but successful sites with original
   content and strong interaction with their audience require a serious commitment
   of staff time.
•	 The new Foreign Affairs Manual (FAM) subchapter on social media provides
   useful and needed guidance on social media, but missions will need additional
   reminders of requirements.
•	 Some portions of the new FAM subchapter are complex or not easily interpreted,
   and missions will need further guidance and advice.

In the Office of Inspector General (OIG) FY 2010 inspection cycle, public diplomacy
inspectors began looking systematically at embassies’ use of social media. However,
the on-the-ground inspections took place before the issuance of the new social media
FAM subchapter, so inspectors could not measure embassies against the new regula-
tions. The focus was on more general questions, such as the extent to which embas-
sies were using social media, the chief challenges they faced, the degree to which
the use of social media was connected to the Mission Strategic and Resource Plan
(MSRP), methods of measurement, and the quality of technical support.

To supplement the inspectors’ reporting, in August 2010, OIG staff examined a
sampling of the Facebook sites of those embassies that were in the FY 2010 and FY
2011 inspection cycles. The purpose of this examination was to ascertain the degree
to which sites were already in compliance with the new FAM provisions and to high-
light potential problem areas in which embassies might need additional reminders or
further guidance, in order to come into compliance with the FAM.
(b) (6)




          OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011   1


                 SENSITIVE BUT UNCLASSIFIED
           SENSITIVE BUT UNCLASSIFIED




2   OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011


           SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



CONTEXT

Given the rapid growth of social media worldwide in recent years, especially among
young people, embassies are increasingly using social media as an important public
diplomacy tool. From the beginning of her time in office, Secretary Clinton has
voiced support for the use of social media1 to communicate with people around the
world. A May 2010 survey by the Office of eDiplomacy found that over half the U.S.
missions had Facebook accounts, and a quarter had Twitter accounts.

The Department provided initial guidance through the Office of International
Information Programs’ (IIP) guidelines2 (November 2008) and in 09 State 16064
(February 2009), Department Notice 2009-03-041, “Social Media and the Conduct
of Diplomacy.” It also established the Social Media Hub as a forum for exchang-
ing ideas and best practices, and the Foreign Service Institute inaugurated courses
on social media. As the effort and resources devoted to social media grew, so did
the need for formal rules and guidelines, and a special, 30-member working group
developed a new subchapter, 5 FAM 790, issued in June 2010. Work is underway on
an addition to the Foreign Affairs Handbook.




1
    See Secretary Clinton’s “21st Century Statecraft” video, posted on Facebook.
2
    See Internet Steering Committee’s “Updated Social Media Guidance.”



                OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011   3


                       SENSITIVE BUT UNCLASSIFIED
           SENSITIVE BUT UNCLASSIFIED




4   OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011


           SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



INSPECTION FINDINGS

In reports on social media at 22 missions in 2009-10, OIG inspectors found that
the use of social media is extensive, but labor-intensive. Many embassies required
additional staff or had to reprogram an existing position in order to use social media
in an active way—for example, to generate original content for the social media site,
update it daily, and respond to users. Those who primarily relied on Web site content
for their social media sites generally cited lack of sufficient staff as an impediment to
creating fresh content. At a number of embassies, American and local staff said they
needed more training to use social media effectively. Depending on the country, a
more active use of social media would require more content in the local language,
which would greatly increase the need for translation resources. Public affairs sections
generally took primary responsibility for mission social media sites and sometimes
found it difficult to get other sections involved—a necessity for serious discussion of
consular or policy issues.

Embassies’ primary goal in establishing social media sites is to reach a younger
audience. Those who succeeded in attracting a large and interactive audience had
put a concerted effort into it and promoted it actively. However, not all embassies
succeeded in building a large and interactive audience.

Social media have proven useful in a crisis to keep people informed about the situa-
tion. Embassy Bangkok, for example, used Facebook and Twitter to keep American
citizens and the public at large informed about the volatile security situation and the
status of embassy operations during the recent political crisis in Thailand.

With regard to site content, public diplomacy staff members are engaging in a
balancing act. They know they are supposed to focus on the MSRP, but they fear
that too great an emphasis on serious issues will make the site heavy, boring, and
unable to attract an audience. Some have developed lighter, more creative content,
reasoning that if their MSRP goal is to reach a younger audience, anything they do
to achieve this automatically falls under the MSRP.

Some embassies have had problems with users posting questionable material on
their social media sites, such as postings by supporters of a terrorist group and U.S.
partisan political screeds. This issue is addressed in a subsequent recommendation.
Others were uncertain about how to handle postings that were severely critical of
U.S. society or policies. Embassy staff would welcome more discussion and guidance
on this issue.




          OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011   5


                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



    Local staff members generally have primary day-to-day responsibility for the sites.
    Supervision by Americans varies widely, and some social media sites may not be
    getting enough supervision from busy officers. Some embassy staff said there is a lack
    of a clear policy or guidelines about when postings or responses to comments have to
    be cleared.


       RECOMMENDATION 1: The Under Secretary for Public Diplomacy and
       Public Affairs should encourage embassies to develop post-specific guidelines
       about clearance requirements for social media site postings and responses to
       users’ comments and questions. (Action: R)


    Embassy staff reported that technical support for social media is generally adequate
    at their mission. However, in many countries, low computer literacy, low Internet
    penetration, inadequate bandwidth for video, and local government blockages of
    social media Web sites limit the effectiveness of social media outreach. In view of
    local conditions, some embassies have avoided putting a lot of resources into social
    media. Others have gone ahead with it anyway, either because they think it is what
    Washington expects, or because they believe that the limited numbers of people they
    do reach still represent a key audience: educated youth.

    Embassies’ evaluation of their social media effectiveness was mostly limited to the
    number of fans or followers of their social media sites and the amount of interaction.
    As a measurement tool, the amount of interactivity on a site is a good indication of
    engagement. Facebook provides a useful tool, Facebook Insights, to assess in more
    detail the interactions with fans, and the popularity of various elements within a
    site. However, if the goal is to change attitudes, then additional measuring tools are
    needed. The Office of Policy, Planning and Resources of the Office of the Under
    Secretary for Public Diplomacy and Public Affairs is sponsoring a study (now in its
    initial stage) to measure the Department’s public diplomacy social media efforts and
    assess attitudinal and behavioral changes.




6             OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



SOCIAL MEDIA SITE REVIEW
FINDINGS

In view of the new regulations in 5 FAM 790, OIG staff examined the Facebook sites
of the missions in the FY 2010 and FY 2011 inspection cycles. This review focused
on provisions of the FAM that can be evaluated by looking at the site itself, as well as
through asking general questions about content and interactivity. Of the 57 missions
in the survey, 42 had active public diplomacy Facebook sites. The other missions
had no Facebook sites, or their sites were brand new, private, strictly ambassadorial,
unavailable at the time of the review, or focused on consular or other specific issues.

The numbers of fans of embassy Facebook pages surveyed varied from a few
hundred to nearly 150,000. The amount of interactivity with fans varied from one
or two “likes” on some postings to hundreds of comments. Discussions of MSRP
topics in any depth were rare, although discussions of American cultural topics
were more common. Interestingly, one mission’s Facebook page drew frequent
comments from the government of the country in which it was located, creating
a sort of public dialogue. About a quarter of the missions updated their Facebook
page daily, half updated it every few days, and about a quarter updated it less than
once a week. More than half of the sites were exclusively in English, while about
10 percent were exclusively in the local language. The others were a mixture; often
the embassy posted in English, and users posted in both English and the local
language.

Some portions of 5 FAM 790, the new social media chapter, codified existing guid-
ance. For example, 5 FAM 793.1 d. states: “All Department social media sites and
applications must be registered in the Information Technology Assets Baseline (ITAB).”
Previous guidance from IIP issued in November 2008 and posted on the Social
Media Hub said that social media sites should be entered into ITAB. Among the 42
Facebook sites examined by the OIG team, only six were registered in the ITAB.


    RECOMMENDATION 2: The Under Secretary for Public Diplomacy and
    Public Affairs, in coordination with the Under Secretary for Management,
    should remind embassies of the requirement to register all social media sites in the
    Information Technology Assets Baseline. (Action: R, in coordination with M)




          OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011   7


                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



    Similarly, 5 FAM 793.4 b. states: “Official Department social media sites must
    include a Terms of Use statement that explains responsibilities of site administrators
    and site users, rules of behavior, privacy policies, and other terms.... Site admin-
    istrators must post the Terms of Use before opening the site to the public.” The
    November 2008 IIP guidance said that a Terms of Use statement “must be posted
    prominently on the homepage of your social media site.” Of the 42 Facebook sites,
    only eight included a Terms of Use statement.


        RECOMMENDATION 3: The Under Secretary for Public Diplomacy and
        Public Affairs should remind embassies about the requirement to include a
        Terms of Use statement on their social media sites. (Action: R)


    All of the Facebook pages that OIG reviewed were clearly identified as official sites,
    but none of them had a “dot-gov” name, as 5 FAM 793.3 b. requires “to the full-
    est extent possible.” However, “Facebook.com” is standard for the initial part of a
    Facebook site name. In addition, the initial Facebook naming guidance issued by the
    Department’s Internet Steering Committee in July 2009 did not specify “dot-gov.” As
    examples of the proper naming convention it cited “www.facebook.com/italy.usem-
    bassy” and “www.facebook.com/surabaya.usconsulate.” Because of the large number
    of fans that successful Facebook sites have attracted, the OIG team believes it would
    be counterproductive to insist on name changes for existing pages that are clearly
    marked as official sites.

    On the issue of accessibility for the disabled, 5 FAM 794 a. (7) (b) states: “Content
    posted by Department personnel on third-party social media sites should be Section
    508 compliant if possible. As appropriate, the disclaimer for a Department page
    on a commercial social media site must explain that content on the site may not be
    compliant with Section 508, as the Department cannot control technical aspects of
    a social media site it does not own.” While some embassies made a serious effort to
    be Section 508 compliant, the majority of the mission Facebook sites the OIG team
    examined were not fully compliant. They included photos and graphics without
    explanations and videos without captions, and they did not include disclaimers.


        RECOMMENDATION 4: The Bureau of Information Resource
        Management should provide additional guidance on Section 508 compliance,
        taking into account the special features and limitations of social media sites.
        (Action: IRM)




8             OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



In its section on content, 5 FAM 794 a. (6) (a) says there should be “[n]o advertising
or solicitation of any kind.” On several of the sites, fans had posted commercial mate-
rial such as ads, hotel recommendations, and links to company Web sites.


   RECOMMENDATION 5: The Under Secretary for Public Diplomacy and
   Public Affairs should provide advice on how to handle comments and postings
   from users of U.S. missions’ social media sites who include links to businesses
   and private organizations or who post questionable content. (Action: R)


On the issue of links, 5 FAM 794 a. (6) (a) states: “Personnel may post links in
limited circumstances, but only for informational, not promotional, purposes. When
non-Federal links are provided, the social media site must include the following
information: The links contained herein are for informational purposes only and do
not necessarily reflect the views or endorsement of the U.S. Government or the U.S.
Department of State.” About a third of the sites the OIG team reviewed featured
links to non-U.S. Government organizations, or to events such as musical groups,
arts festivals, private study abroad programs, and nongovernmental organizations.
Some private organizations were public diplomacy program partners, while others did
not appear to be. Some of these non-U.S. Government sites were listed as “Favorite
Pages.” In these cases, the difference between “informational” and “promotional” was
hard to discern. Few sites had disclaimers.


   RECOMMENDATION 6: The Under Secretary for Public Diplomacy and
   Public Affairs should provide guidance to embassies about listing non-U.S.
   Government social media and Web sites as “Favorites” in order to avoid cross-
   ing the line between “informational” and “promotional,” and should remind
   embassies about the need for disclaimers. (Action: R)


According to 5 FAM 794 a. (2) (b), information posted by Department personnel
must “not promote a personal business or political point of view.” The sites generally
stayed away from politics, though one embassy listed as a “Favorite Page” a link to
“Students for Barack Obama,” the official student wing of the Obama for America
campaign.


   RECOMMENDATION 7: The Under Secretary for Public Diplomacy and
   Public Affairs should clarify the rules about links to political groups and the
   handling of user-generated content of a political nature. (Action: R)



          OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011   9


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     There is nothing to prevent Americans from posting comments and questions on
     embassy social media sites, and 5 FAM 794 a. (6) (b) notes that, “[d]ue to the open
     and global nature of social media sites, Department-generated Public Diplomacy
     content must be carefully reviewed to avoid violations of the United States
     Information and Educational Exchange Act of 1948, as amended (Smith-Mundt).”
     About 10 percent of the embassy Facebook pages examined had a significant number
     of postings by Americans, and many more had some postings. However, except for
     those sites that focus on consular issues, the sites did not deliberately aim any signifi-
     cant amount of content at Americans.

     OIG staff did not look at the issue of whether and how embassies are archiving
     social media records, but this is probably an area in which embassies will need more
     concrete guidance, in order to comply with the complexities of 5 FAM 794 a. (8) and
     (9). Further guidance may also be needed on the question of when the Privacy Act (as
     noted in 5 FAM 794 a. (5) (b) comes into play, when archiving records that include
     users’ comments. The OIG team made informal recommendations on these issues




10             OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



OTHER ISSUES

Two of the Facebook pages that OIG reviewed did not provide a link to the embassy
Web site, and seven embassy Web sites provided no link to the Facebook page. In
addition to public affairs sections, other embassy sections and agencies are developing
social media sites, but the Facebook pages of different mission sections and agencies
(such as the consular section and USAID) did not always link to each other. The new
FAM does not address the issue of linkages between and among mission social media
sites and Web sites, but common sense would dictate that these sites should link to
each other, in order to bolster each other’s reach. The OIG team made an informal
recommendation on this issue.

Embassies may need more advice on the security implications of social media, such as
the issue of giving advance notice of ambassadorial travel in the promotion of public
diplomacy programs or the use of photos and identifying information about embassy
personnel. OIG made an informal recommendation on this issue.




          OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011   11


                 SENSITIVE BUT UNCLASSIFIED
            SENSITIVE BUT UNCLASSIFIED




12   OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011


            SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



RECOMMENDATIONS

RECOMMENDATION 1: The Under Secretary for Public Diplomacy and Public
Affairs should encourage embassies to develop post-specific guidelines about clear-
ance requirements for social media site postings and responses to users’ comments
and questions. (Action: R)


RECOMMENDATION 2: The Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Under Secretary for Management, should remind
embassies of the requirement to register all social media sites in the Information
Technology Assets Baseline. (Action: R, in coordination with M)


RECOMMENDATION 3: The Under Secretary for Public Diplomacy and Public
Affairs should remind embassies about the requirement to include a Terms of Use
statement on their social media sites. (Action: R)


RECOMMENDATION 4: The Bureau of Information Resource Management
should provide additional guidance on Section 508 compliance, taking into account
the special features and limitations of social media sites. (Action: IRM)


RECOMMENDATION 5: The Under Secretary for Public Diplomacy and Public
Affairs should provide advice on how to handle comments and postings from users of
U.S. missions’ social media sites who include links to businesses and private organiza-
tions or who post questionable content. (Action: R)


RECOMMENDATION 6: The Under Secretary for Public Diplomacy and Public
Affairs should provide guidance to embassies about listing non-U.S. Government
social media and Web sites as “Favorites” in order to avoid crossing the line between
“informational” and “promotional,” and should remind embassies about the need for
disclaimers. (Action: R)


RECOMMENDATION 7: The Under Secretary for Public Diplomacy and Public
Affairs should clarify the rules about links to political groups and the handling of
user-generated content of a political nature. (Action: R)




          OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011   13


                 SENSITIVE BUT UNCLASSIFIED
            SENSITIVE BUT UNCLASSIFIED




14   OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011


            SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



INFORMAL RECOMMENDATIONS

Informal recommendations cover operational matters not requiring action by organi-
zations outside the inspected unit and/or the parent bureau. Informal recommenda-
tions will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the progress in implementing
the informal recommendations.

With regard to archiving social media records, embassies need assistance in deal-
ing with the complexity of the regulations, such as the difference between records,
nonrecord content, and transitory records; methodology for preserving electronic
records; procedures for social media sites that may change daily or even hourly; and
Privacy Act regulations.

Informal Recommendation 1: The Office of Policy, Planning and Resources
for Public Diplomacy and Public Affairs, in coordination with the Bureau of
Administration, should provide clear and concrete instructions on the rules and
methods of preserving social media records.

Informal Recommendation 2: The Office of Policy, Planning and Resources
for Public Diplomacy and Public Affairs, in coordination with the Bureau of
Administration, should provide clear and concrete guidance on Privacy Act regula-
tions as they apply to social media records.

The various social media sites within embassies should link to each other, in order to
bolster each other’s audiences. Because of the structure of social media, it is possible
for an embassy section or agency to start a social media site without other sections
being aware of it.

Informal Recommendation 3: The Office of Policy, Planning and Resources for
Public Diplomacy and Public Affairs should issue guidance directing embassies to
require all the mission’s official social media sites to link to one another and to the
embassy’s Web site.

As social media sites proliferate within embassies, a central repository of knowledge is
needed, which logically should be the public affairs section.

Informal Recommendation 4: The Office of Policy, Planning and Resources for
Public Diplomacy and Public Affairs should issue guidance directing embassies to
inform their public affairs officers that the public affairs section is the central reposi-
tory of knowledge with regard to official social media.



           OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011   15


                  SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     Embassies need to be aware of the security implications of publicizing embassy activi-
     ties in advance and publishing photos of embassy personnel on social media sites.

     Informal Recommendation 5: The Office of Policy, Planning and Resources for
     Public Diplomacy and Public Affairs, in coordination with the Bureau of Diplomatic
     Security, should issue guidance to embassies on how to develop a security policy for
     social media site content.




16             OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011


                      SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



ABBREVIATIONS

FAM		Foreign Affairs Manual
IIP		Office of International Information Programs
ITAB		Information Technology Assets Baseline
MSRP		Mission Strategic and Resource Plan
OIG		Office of Inspector General
USAID	                           U.S. Agency for International Development




         OIG Report No. ISP-I-11-10 - Review of the Use of Social Media by the Department of State - February 2011   17


                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE
OR MISMANAGEMENT
 of Federal programs hurts everyone.



           Contact the
   Office of Inspector General

         HOTLINE
to report illegal or wasteful activities:


            202-647-3320
            800-409-9926

         oighotline@state.gov

              oig.state.gov

      Office of Inspector General
       U.S. Department of State
            P. O. Box 9778
         Arlington, VA 22219


     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.




SENSITIVE BUT UNCLASSIFIED
